APPENDIX

1a
APPENDIX A
Court of Appeal, First Appellate District,
Division Five - No. A158632
April 28, 2021
S267419
IN THE SUPREME COURT OF CALIFORNIA
En Banc

JASON SELF, et al., Plaintiffs and Appellants,
v.
CHER-AE HEIGHTS INDIAN COMMUNITY OF
THE TRINIDAD RANCHERIA,
Defendant and Respondent.

The petition for review is denied.

Cantil-Sakauye
Chief Justice

2a
APPENDIX B
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
JASON SELF et al.,
Plaintiffs and Appellants,
v.
CHER-AE HEIGHTS INDIAN
COMMUNITY OF THE
TRINIDAD RANCHERIA,
Defendant and Respondent.

A158632
(Humboldt
County Superior
Court
No. DR190353)
Filed Jan. 26,
2021

The question in this case is whether sovereign
immunity bars a quiet title action to establish a public
easement for coastal access on property owned by an
Indian tribe. We hold that the tribe’s sovereign
immunity bars the action.
Congress has not
abrogated tribal immunity for a suit to establish a
public easement. The plaintiffs fail to persuade us
that a common law exception to sovereign immunity
for “immovable property” applies here. Consistent
with decades of Supreme Court precedent, we defer to
Congress to decide whether to impose such a limit,
particularly given the importance of land acquisition
to federal tribal policy. We affirm the trial court’s
dismissal of the suit.

3a
BACKGROUND
A.
As “‘separate sovereigns pre-existing the
Constitution,’” Indian tribes possess the “‘commonlaw immunity from suit traditionally enjoyed by
sovereign powers.’” (Michigan v. Bay Mills Indian
Cmty. (2014) 572 U.S. 782, 788 (Bay Mills).) Tribes
are domestic dependent nations subject to Congress’s
plenary authority. (Ibid.) Tribal immunity is part
and parcel of Indian sovereignty and self-governance.
(Ibid.) It protects tribes from the financial burdens of
defending against suits, encourages economic
development and self-sufficiency, and furthers tribal
self-governance. (People v. Miami Nation Enterprises
(2016) 2 Cal.5th 222, 235 (Miami Nation).)
Because it is a matter of federal law, tribal
immunity is “not subject to diminution by the States.”
(Bay Mills, supra, 572 U.S. at p 789.) Tribes enjoy
immunity from suit regardless of whether their
activities are commercial in nature or whether their
activities take place on a reservation. (Id. at p. 790;
Kiowa Tribe of Oklahoma v. Manufacturing
Technologies, Inc. (1998) 523 U.S. 751, 758-760
(Kiowa).) The United States Supreme Court has “time
and again . . . dismissed any suit against a tribe
absent congressional authorization (or a waiver).”
(Bay Mills, supra, 572 U.S. at p. 789.) In so doing, the
court has deferred to Congress to determine the
nature and limits of tribal immunity because it is
Congress’s job, not the courts’, to weigh competing
policies and create exceptions to tribal immunity. (Id.
at pp. 800-801.)
In short, tribal immunity is the rule, subject only
to two exceptions: when a tribe has waived its

4a
immunity or Congress has authorized the suit. (Bay
Mills, supra, 572 U.S. at pp. 789-791.)
B.
Defendant Cher-Ae Heights Indian Community of
the Trinidad Rancheria (“Tribe”) is a federally
recognized Indian tribe. (See 84 Fed.Reg. 1200-01,
1201 (Feb. 1, 2019).) It purchased the coastal property
at issue in fee simple absolute. The Tribe has applied
to the federal Bureau of Indian Affairs (“Bureau”) to
take the property into trust for the benefit of the
Tribe. (See 25 U.S.C. § 5108.) Some background on
the administrative process is helpful to understanding
the parties’ arguments.1
As part of the trust acquisition process, federal
law requires a review of the Tribe’s title and sets forth
a process for resolving title issues. (See 25 C.F.R.
§ 151.13.) If the federal government approves the
Tribe’s trust application, interested parties may
appeal that decision. (See 25 C.F.R. § 151.12(d); see
also, e.g., Crest-Dehesa-Granite Hills-Harbison
Canyon Subregional Planning Group v. Acting Pacific
Regional Director, Bureau of Indian Affairs (IBIA
1

We take judicial notice of facts related to the process
appearing in three documents attached to the Tribe’s request to
the trial court for judicial notice: (1) A December 21, 2019, letter
from the Acting Regional Director of the Bureau to the Coastal
Commission indicating that the proposed trust acquisition is
consistent with the California Coastal Act; (2) a March 11, 2019,
letter from the Coastal Commission to the Regional Director of
the Bureau concurring with the Bureau’s consistency
determination; and (3) the Coastal Commission’s Adopted Staff
Report concerning the Bureau’s consistency determination. (See
Evid. Code, § 452, subd. (c); see also Banning Ranch Conservancy
v. City of Newport Beach (2012) 211 Cal.App.4th 1209, 1225, fn.
6 [taking judicial notice of Coastal Commission determination
and staff report].)

5a
2015) 61 IBIA 208, 214-215 [remanding decision to
take tribal property into trust due to failure to address
adjacent property owners’ concerns regarding
easement rights].) Federal law also includes a
mechanism for obtaining a right of way over tribal
trust lands, with the consent of the tribe. (25 U.S.C.
§§ 323, 324; 25 C.F.R. § 169.101.)
Because the Tribe’s proposed trust acquisition
involves coastal property, the federal Coastal Zone
Management Act imposes additional requirements.
Each federal agency whose activity affects a coastal
zone must certify that the activity is consistent to the
maximum extent practicable with the state’s coastal
management policies. (See 16 U.S.C. § 1456(c); see
also 15 C.F.R. § 930.36.) The state may concur or
object to the federal consistency determination as part
of a public process. (16 U.S.C. § 1456(c)(3)(A); 15
C.F.R. §§ 930.35, 930.39, 930.41, 930.42, 930.43.)
Here, the Bureau determined the Tribe’s proposal
is consistent with state coastal policies, including
public access requirements in the state Coastal Act.
(See Pub. Resources Code, § 30210 [“maximum access
... and recreational opportunities shall be provided for
all the people consistent with public safety needs and
the need to protect public rights, rights of private
property owners, and natural resource areas from
overuse”]; see also, e.g., Pub. Resources Code,
§§ 30211, 30212, 30214.)
Our Coastal Commission—the agency primarily
responsible for implementing the Coastal Act (see
Pub. Resources Code, § 30330)— concurred with the
Bureau’s determination. After securing commitments
from the Tribe to protect coastal access and coordinate
with the state on future development projects, the
Commission concluded that the Tribe’s proposal

6a
“would not interfere with the public’s right to access
the sea” and would be consistent with public access
policies.
In the future, if the Tribe violates the state’s
coastal access policies, the Coastal Commission may
request that the Bureau take appropriate remedial
action. (See 15 C.F.R. § 930.45(b)(1); see also 16
U.S.C. § 1456(c)(3)(A) [requiring new consistency
review for future development projects that require
federal permits].)
C.
According to the complaint, plaintiff Jason Self
uses the Tribe’s coastal property to access the beach
for recreational purposes and for his kayaking
business. Plaintiff Thomas Lindquist also uses the
property to access the beach for recreation. They
allege that the prior owner of the property dedicated
a portion of it to public use, either expressly or
impliedly, between 1967 and 1972. (See Civ. Code,
§ 1009, subd. (b) [limiting implied dedications of
public easements to those established prior to March
4, 1972].) The complaint seeks to quiet title to a
public easement for vehicle access and parking on the
property.
Self and Lindquist do not allege that the Tribe has
interfered with their coastal access or that it plans to
do so. They worry that the Tribe might do so in the
future, and they filed this case out of “an abundance
of caution.” Once the land is placed in trust, the
federal government would hold title to it for the
benefit of the Tribe. (See 25 U.S.C. § 5108.) The
United States is immune to actions to quiet title to
Indian trust land. (28 U.S.C. § 2409a(a).)

7a
In the trial court, the Tribe entered a special
appearance and, citing sovereign immunity, moved to
quash service of process and to dismiss the complaint
for lack of subject matter jurisdiction. The trial court
granted the motion and dismissed the case with
prejudice.2
DISCUSSION
A.
It is settled that an Indian tribe is immune to suit
in the absence of waiver or congressional abrogation
of the tribe’s immunity. (Bay Mills, supra, 572 U.S. at
pp. 788-790; Kiowa, supra, 523 U.S. at p. 754.) Self
and Lindquist do not argue either exception applies
here. Ordinarily, then, we must affirm the trial
court’s dismissal. (Bay Mills, supra, 572 U.S. at p. 791
(“Unless Congress has authorized Michigan’s suit, our
precedents demand that it be dismissed.”)
Self and Lindquist argue that we should recognize
an existing common law exception to sovereign
immunity. They contend that, at common law,
sovereigns such as states and foreign governments
were not immune to property disputes, under the
immovable property exception. The United States
Supreme Court has never applied such an exception
to a tribe and recently declined to decide the question

2

Self and Lindquist assert that the trial court abused its
discretion in denying judicial notice of documents relating to
gambling revenues of Indian tribes. We find no error in the
court’s conclusion that the materials are irrelevant. We deny as
irrelevant Self and Lindquist’s request that we take judicial
notice of the same documents, as well as the Tribe’s request for
judicial notice of a Petition for Writ of Administrative Mandamus
in Humboldt County Superior Court Case No. CV190327 and a
1997 report by the Advisory Council on California Indian Policy.

8a
in Upper Skagit Indian Tribe v. Lundgren (2018) __
U.S. __, __ [138 S.Ct. 1649, 1652] (Upper Skagit).)
We review the immunity issue de novo. (Miami
Nation, supra, 2 Cal.5th at p. 250.)
B.
Self and Lindquist are correct that states and
foreign sovereigns are not immune to suits regarding
real property located outside of their territorial
boundaries. We are not persuaded, however, that a
common law exception extends to tribes or that we
should depart from the standard practice of deferring
to Congress to determine limits on tribal immunity.
1.
In State of Georgia v. City of Chattanooga (1924)
264 U.S. 472, 479-480 (Chattanooga), the Supreme
Court held that when a state purchases real property
in another state, it is not immune to suit over rights
to the property. Georgia had purchased land for a
railroad yard in Chattanooga, Tennessee. (Id. at p.
478.) It sued to enjoin the city from condemning a
right of way though the property, arguing that it had
never consented to suit in Tennessee courts. (Id. at p.
479.) The Supreme Court held Georgia’s foray into
the Tennessee railroad business was a private
undertaking, not a sovereign one: “Having acquired
land in another State for the purpose of using it in a
private capacity, Georgia can claim no sovereign
immunity or privilege in respect to its expropriation.”
(Id. at pp. 479-480.) “Land acquired by one State in
another State is held subject to the laws of the latter
and to all the incidents of private ownership.” (Id. at
p. 480.)
Simply because this rule applies to states,
however, does not mean it also applies to tribes. The

9a
Supreme Court has “often noted . . . that the
immunity possessed by Indian tribes is not
coextensive with that of the States.” (Kiowa, supra,
523 U.S. at p. 756.) Self and Lindquist acknowledge
that, unlike tribal immunity, state sovereign
immunity turns on the nature of the constitutional
compact as informed by the Eleventh Amendment.
(See Franchise Tax Board of Cal. v. Hyatt (2019) __
U.S. __, __ [139 S.Ct. 1485, 1497-1498].) Tribes, who
were not parties to that compact, did not surrender
any aspect of their sovereignty as part of the
constitutional plan. (See Bay Mills, supra, 572 U.S.
at pp. 789-790.) Tribes retain a “special brand of
sovereignty,” and both its nature and extent “rests in
the hands of Congress.” (Id., at p. 800.)
Indeed, in contrast to Chattanooga, the Supreme
Court has not limited tribal immunity to traditional
sovereign activities, as opposed to private commercial
ventures. In Oklahoma Tax Commission v. Citizen
Band of Potawatomi Indian Tribe of Oklahoma (1991)
498 U.S. 505, 510 (Potawatomi), the Supreme Court
rejected an argument that a tribe’s off-reservation
cigarette sales were too removed from the tribe’s
sovereign interests to be covered by tribal immunity.
Instead the court deferred to Congress to make those
kinds of judgments, pointing to Congress’s policy
objectives of promoting tribal self-governance, selfsufficiency, and economic development. (Ibid.) Land
acquisition, moreover, has a far stronger nexus to
tribes’ sovereign interests than cigarette sales. As we
explain below, after Indian tribes lost millions of acres
of reservation land due to calamitous federal policies
enacted in the late 19th century, Congress made land
acquisition a central feature of its tribal policy.

10a
Upper Skagit does not help Self and Lindquist. In
his concurring opinion, Chief Justice Roberts stated
that the immovable property rule applies to states
(citing Chattanooga) but reserved the question of
whether it applies to tribes. (Upper Skagit, supra, __
U.S. at pp. __ [138 S.Ct. at pp. 1655-1656] (conc. opn.
of Roberts, C.J.)). Justice Thomas would have applied
it to tribes but only found support for that position
from Justice Alito. (Id. at pp. __ [138 S.Ct. at pp. 16611663] (dis. opn. of Thomas, J.).) The majority opinion
does not reach the question. (Id. at pp. 1653-1654.)
2.
Self and Lindquist fare no better with foreign
sovereign immunity. They note that Chief Justice
Marshall’s opinion in The Schooner Exchange v.
McFaddon (1812) 11 U.S. 116 (Schooner Exchange)
articulated a common law immovable property
exception for foreign sovereigns, albeit in dicta. (Id.
at p. 145 [“A prince, by acquiring private property in
a foreign country, may possibly be considered as
subjecting that property to the territorial jurisdiction;
he may be considered as so far laying down the prince,
and assuming the character of a private individual.”].)
They also point to a statute: the Foreign Sovereign
Immunities Act includes an exception for immovable
property (28 U.S.C. 1605(a)(4)), which was intended
to codify “an exception to sovereign immunity
recognized by international practice.” (Permanent
Mission of India to the United Nations v. City of New
York (2007) 551 U.S. 193, 200.)
Neither the dicta in Schooner Exchange nor the
Foreign Sovereign Immunities Act establishes that a
common law exception applies to foreign sovereigns.
Schooner Exchange concerned a French warship, not
real property; the court held that United States courts

11a
lack jurisdiction over the warship.
(Schooner
Exchange, supra, 11 U.S. at p. 147.) Thereafter,
courts interpreted Schooner Exchange to establish
“virtually absolute immunity” for foreign sovereigns.
(Verlinden B.V. v. Central Bank of Nigeria (1983) 461
U.S. 480, 486 (Verlinden B.V.).) For the next 164
years, foreign sovereigns were generally immune to
suit. (Ibid.) This was a matter of comity, rather than
a constitutional restriction, and courts deferred to the
executive branch (specifically, the State Department)
when deciding whether to assert jurisdiction over a
foreign sovereign. (Id. at pp. 486-487.) At least some
of these cases involved real property owned by a
foreign sovereign. (E.g., Knocklong Corp. v. Kingdom
of Afghanistan (Nassau Cty. Ct. 1957) 167 N.Y.S.2d
285, 286-287 [granting motion to dismiss suit based
on sovereign immunity of the Kingdom of
Afghanistan, as “‘suggest[ed]’” by amicus curiae State
Department, in an action challenging title to real
property].) When this case-by-case practice proved
problematic, Congress passed the Foreign Sovereign
Immunities Act in 1976. (Verlinden B.V., supra, 461
U.S. at pp. 487 488.) In short, the common law does
not seem to have driven foreign sovereign immunity.
Rather, the courts deferred to the political branches—
first the executive branch and then Congress after the
Foreign Sovereign Immunities Act.
Even if there were a common law exception to
foreign sovereign immunity, Self and Lindquist do not
explain why we should extend it to tribes. Tribes are
not foreign sovereigns; “the relation of the Indians to
the United States is marked by peculiar and cardinal
distinctions which exist nowhere else.” (Cherokee
Nation v. Georgia (1831) 30 U.S. 1, 16; see also id. at
p. 18 [noting that Article III, section 8 of the United
States Constitution refers separately to “foreign

12a
nations” and “the Indian tribes”].) The Supreme
Court has rejected the notion that tribal sovereign
immunity must be congruent with foreign sovereign
immunity. (Bay Mills, supra, 572 U.S. at pp. 797798.) Tribes enjoy immunity for commercial activities
(Kiowa, supra, 523 U.S. at p. 758), notwithstanding
the fact that Congress has denied it to foreign
sovereigns. (28 U.S.C. § 1605(a)(2).) In fact, the
Supreme Court has pointed to the Foreign Sovereign
Immunities Act as an example of its deference to
Congress on both foreign and tribal immunity: “In
both fields, Congress is in a position to weigh and
accommodate the competing policy concerns and
reliance interests.” (Kiowa, supra, 523 U.S. at p. 759.)
3.
Even assuming a common law exception applies
to states and foreign sovereigns, there are at least
three additional reasons counselling us to defer to
Congress to decide whether it should apply to tribes.
a.
Deferring to Congress on tribal immunity has
been the Supreme Court’s standard practice for
decades. The court has acknowledged that it has the
authority to limit tribal immunity, but it has
pointedly refused to impose limits, despite its own
skepticism about the doctrine’s merits and somewhat
hazy origins. (Kiowa, supra, 523 U.S. at pp. 756-757
[tribal immunity developed “almost by accident” and
“with little analysis”]; id. at pp. 758-759.) Self and
Lindquist recycle arguments that the Court has
rejected in other cases: immunity could leave them
with no effective judicial remedy (Potawatomi, supra,
498 U.S. at p. 514); tribal immunity should not be
more broad than that of other sovereigns (see Bay

13a
Mills, supra, 572 U.S. at p. 800); tribes should not
enjoy immunity for commercial activities. (E.g.,
Potawatomi, supra, 498 U.S. at p. 510.) decades, the
Supreme Court has set aside these and other
concerns, treated tribal sovereign immunity as settled
law, and deferred to Congress for the “simple
reason[][that] it is fundamentally Congress’s job, not
ours, to determine whether or how to limit sovereign
immunity.” (Bay Mills, supra, 572 U.S. at p. 800.) We
see no reason to depart from this practice.
b.
We should also defer to Congress because
supporting tribal land acquisition is a key feature of
modern federal tribal policy, which Congress adopted
after its prior policy divested tribes of millions of acres
of land. Deference is particularly appropriate when
Congress has been active in the subject matter at
issue. (See Bay Mills, supra, 572 U.S. at pp. 802-803;
Kiowa, supra, 523 U.S. at pp. 758-759.)
In the late 19th century, the federal government
abandoned its policy of supporting Indian selfgovernance and control of Indian lands and instead
adopted a policy “to extinguish tribal sovereignty,
erase reservation boundaries, and force assimilation
of Indians into the society at large.” (County of
Yakima v. Confederated Tribes and Bands of the
Yakima Indian Nation (1992) 502 U.S. 251, 253-254
(County of Yakima).) The Dawes Act of 1887 (24 Stat.
388) – “which empowered the President to allot most
tribal lands nationwide without the consent of the
Indian nations involved” (County of Yakima, supra,
502 U.S. at p. 254) and permitted the sale to nonIndians of surplus lands located on Indian
reservations – devastated tribes, aggravated their
poverty, and resulted in 90 million acres of tribal land

14a
passing to non-Indians. (Bay Mills, supra, 572 U.S. at
pp. 811-813 (conc. opn. of Sotomayor, J.).)
Congress abruptly ended this approach with the
enactment of the Indian Reorganization Act (48 Stat.
984) in 1934 and returned to the policy of supporting
tribal self-determination and self-governance.
(County of Yakima, supra, 502 U.S. at p. 255.) Given
the massive loss of tribal lands in the preceding
decades, Congress authorized the federal government
to restore surplus lands to tribes. (Ibid.) Congress
also authorized the government to acquire land both
within and outside existing reservations “for the
purpose of providing land for Indians.” (48 Stat. 985;
see 25 U.S.C. § 5108; County of Yakima, supra, 502
U.S. at p. 255.) The same provision empowers the
federal government to take land into trust for the
benefit of a tribe, as the Tribe has requested here.
(See 25 U.S.C. § 5108.) Federal regulations establish
an administrative process for addressing title
concerns when the Bureau takes land into trust (25
C.F.R. § 151.13) as well as for obtaining easements
over trust lands (25 C.F.R. § 169.101; see also 25
U.S.C. §§ 323, 324).
The Indian Reorganization Act advances tribes’
sovereign interests by helping them restore land they
lost. And regardless of whether a particular tribe lost
land, tribal land acquisition generally advances
Congress’s goals of tribal self-sufficiency and
economic development. By authorizing the federal
government to acquire land outside of existing
reservations in trust for the benefit of a tribe, the
federal scheme implicitly recognizes that tribes may
acquire land for sovereign purposes beyond the
borders of a reservation. (See 25 U.S.C. § 5108; 25
C.F.R. § 151.3(a).) This further distinguishes tribal

15a
land acquisition from that of states and foreign
sovereigns.
Decades after the enactment of the Indian
Reorganization Act, Congress considered whether
sovereign immunity should protect trust lands. In
1972, Congress waived the federal government’s
sovereign immunity in title disputes over real
property under the Quiet Title Act. (28 U.S.C.
§ 2409a; see Block v. North Dakota (1983) 461 U.S.
273, 275 276.) But it retained immunity for property
that the government holds in trust for Indian tribes.
(28 U.S.C. § 2409a(a).) The Justice Department,
which proposed the exception for Indian lands,
observed that “Indians . . . have often surrendered
claims to vast tracks of land” and proposed the
exclusion because “[t]he Federal Government’s trust
responsibility for Indian lands is the result of solemn
obligations entered into by the United States
Government.” (See H.R. Rep. No. 1539, 92d Cong., 2d
Sess. (1972), reprinted in 1972 U.S. Code Cong. &
Admin. News, pp. 4547, 4556-67, written testimony
from Mitchell Melich, Solicitor, U.S. Dept. of Interior.)
Congress adopted the exclusion notwithstanding
testimony that title disputes arise on Indian lands
just like they do on federal lands covered by the bill’s
waiver of immunity. (Dispute of Titles on Public
Lands, Hearings before Sen. Com. on Interior and
Insular Affairs, Subcom. on Public Lands, on Sen. No.
216, Sen. No. 579, and Sen. No. 721, 92nd Cong., 1st.
Sess., at pp. 58-60 (Sept. 30, 1971), testimony of
Thomas E. McKnight.)
Congress has also addressed the sovereign
immunity of Indian tribes themselves in connection
with tribal land. Just eight months after the Supreme
Court issued its decision in Upper Skagit, supra, __

16a
U.S. __ [138 S.Ct. 1649], Congress reaffirmed its
approval of tribal immunity in the context of a statute
that, among other things, authorizes Indian tribes to
grant rights of way over their land for energy resource
development. (Pub.L. No.115-325, Title I, §§ 103(a),
105(d) (Dec. 18, 2018) 132 Stat. 4447, 4454, codified at
25 U.S.C. § 3504(i) [“Nothing in this section waives
the sovereign immunity of an Indian tribe.”])
Further, Congress has abrogated tribal immunity
in targeted circumstances involving disputes over
property. For example, the Indian Depredation Act
authorizes suits against tribes that seized or
destroyed property without just cause or provocation.
(See Act of Mar. 3, 1891, ch. 538, 26 Stat. 851; see also
Hamilton v. United States (1907) 42 Ct.Cl. 282, 287
[dismissing case for lack of jurisdiction because Indian
Depredation Act did not authorize suit where tribe
took claimant’s real property pursuant to tribal law].)
A 1958 statute waives tribal immunity and authorized
the Hopi or Navajo Tribes to “commence or defend” a
quiet title action against one another or any other
tribe with an interest in specified tribal lands that had
been the subject of a long-running dispute. (See Act
of July 22, 1958, Pub. L. No. 85-547, 72 Stat. 403;
Hamilton v. Nakai (9th Cir. 1971) 453 F.2d 152, 158159 [Indian tribes enjoyed sovereign immunity in
quiet title suit absent waiver of immunity in Pub. L.
No. 85-547]; see also Act of December 22, 1974, Pub.
L. No. 93-531, § 8(a), 88 Stat. 1712, 1715 [either the
Navajo or Hopi “tribe . . . is . . . hereby authorized to
commence or defend . . . an action against the other
tribe and any other tribe . . . for the purpose of . . .
quieting title” to specified lands].)
This history weighs strongly in favor of deferring
to Congress to weigh the relevant policy concerns of

17a
an immovable property rule in light of the
government’s solemn obligations to tribes, the
importance of tribal land acquisition in federal policy,
and Congress’s practice of selectively addressing
tribal immunity issues in property disputes.
c.
Finally, the facts of this case make it a poor
vehicle for extending the immovable property rule to
tribes.
As far as property disputes go, this is something
of a non-event. We do not discount the public’s
interest in coastal access. But when considering
adopting a common law rule that would broadly
abrogate tribal immunity in a wide variety of property
disputes, it is worth noting that Self and Lindquist do
not claim an ownership interest in the property. They
allege no injury. They are attempting to establish a
public easement for coastal access based on their
concern that, sometime after the federal government
takes the property into trust, the Tribe might
interfere with access. The concern is speculative.
And, as this case illustrates, Congress has created a
detailed process for protecting public interests such as
coastal access.
(See, e.g., 16 U.S.C. § 1456(c).)
California worked with the Bureau and the Tribe in
that process. The state secured assurances from the
Tribe to preserve coastal access. It determined that
access is adequately protected, and it has remedies if
there are problems in the future.

18a
We have considered Self and Lindquist’s
remaining arguments and find them to be without
merit.3
DISPOSITION
The judgment is affirmed.

3

We are not persuaded by the Tribe’s argument, embraced by
our colleague, that federal law preempts state quiet title actions.
It is not enough that such actions could complicate the federal
trust process. (See Virginia Uranium, Inc. v. Warren (2019) __
U.S. __, __, 139 S.Ct. 1894, 1901.) The Tribe points to no
constitutional text or federal statute that displaces or conflicts
with state law. (Ibid.)

19a
__________________
BURNS, J.
I concur:
________________________
SIMONS, ACTING P.J.
A158632

20a
Reardon, J., Concurring.
I concur in the judgment and write to outline a
narrow, but important, distinction in my reasoning
which reaches the same result as does the majority.
In essence, the question undergirding this litigation is
whether tribal sovereign immunity to litigation, as
originally understood, includes an exception for the
litigation of disputes over title to real (immovable)
property or not. My view is that it does contain such
an exception, which Congress may but has not
eliminated. The majority reasons that it does not
contain such an exception, though Congress could but
has not added one.1 Nonetheless, we agree on the
importance of the tribal interests involved and the
federal government’s manifest policy to encourage the
expansion of tribal property interests and, thereby,
tribal self-sufficiency.
Further, we agree that
substantial deference is owed congressional action in
this area.
However, I believe that, once a tribe petitions to
bring land within federal trust, the nuanced scheme
created by Congress for the consideration of such
petitions preempts this litigation. By different routes,
we reach the same result: plaintiffs’ action was
properly dismissed by the trial court.
Does the doctrine of tribal sovereign immunity act
as a bar to a state court action to imply an easement
over nonreservation real property owned by an Indian
tribe? The plaintiffs, seeking to impose the easement

1

The majority cites to instances in which Congress has
reinforced the notion of tribal sovereign immunity. (Maj. opn.
ante, at pp. 12–16.) However, none of these pertain to nontrust
land owned by a tribe within the territorial limits of another
sovereign, as presented by these facts.

21a
on behalf of the public in general, would have us
answer this question in the negative. They argue
that, whatever the provenance and scope of tribal
sovereign immunity, it does not pertain to immovable
property. Consequently, they contend the doctrine
does not bar an in rem action to impose an easement
on property within the state of California.
The “immovable property exception” to state
sovereign immunity was, in essence, recognized by the
United States Supreme Court in Georgia v.
Chattanooga (1924) 264 U.S. 472, 480. (Upper Skagit
Indian Tribe v. Lundgren (2018) __U.S.__ [138 S.Ct.
1649, 1660] (dis. opn. of Thomas, J., joined by Alito,
J.) (Upper Skagit).)
The immovable property
exception to foreign nation sovereign immunity has
been codified by Congress in the Foreign Sovereign
Immunities Act of 1976 (FSIA).
(28 U.S.C.
§ 1605(a)(4); Permanent Mission of India to the UN v.
City of New York (2007) 551 U.S. 193, 200 [FSIA
codified the “‘preexisting’” immovable property
exception to sovereign immunity].)
However,
recently, the high court declined to decide whether
such an exception exists as to tribal sovereign
immunity, instead remanding to the state court of
Washington for determination of that issue in the first
instance. (Upper Skagit, at pp. __ [138 S.Ct. at pp.
1653–1654].)
Justice Thomas dissented from the majority’s
determination not to rule on the question. (Upper
Skagit, supra, __U.S.__ at pp.__ [138 S.Ct. at pp.
1656–1657].) He then went on, at length, to explain
why he believed the immovable property exception
applied to tribal sovereign immunity, as it does to
other types of immunity. (Id. at pp. __ [138 S.Ct. at

22a
pp. 1657–1663].) His reasoning makes sense, and I
adopt it here without full recitation.
Suffice to say, when one sovereign owns land of
another sovereign, the second sovereign generally
retains the authority to adjudicate disputes
respecting that land, at least with regard to questions
like the one before us over title. (Upper Skagit, supra,
__U.S.__ at p. __ [138 S.Ct. at p. 1662] [“‘the title to,
and the disposition of real property, must be
exclusively subject to the laws of the country where it
is situated’”].) Thus, the second sovereign’s authority
over issues of title to land within its boundaries
supersedes the first sovereign’s privilege to preclude a
judicial challenge to the fact and scope of its
ownership of that land.2 Quite obviously, the tribe’s
assertion of sovereign immunity to suit would operate
to undermine the very foundation of the state’s
sovereignty. Congress could endorse such a result,
but it has not, either explicitly or implicitly.
The federal Constitution does not speak to Indian
tribal immunity. (See Kiowa Tribe of Oklahoma v.
Manufacturing Techs. (1998) 523 U.S. 751, 759.)
Thus, whether its inherent scope is derived from
common law or natural law, it does not derive from
the Constitution. Congress with its plenary authority
over Indian affairs could modify its scope and could
presumably extend tribal immunity to immovable
property. (Michigan v. Bay Mills Indian Community
2

As noted by the majority, tribes are different from states and
foreign nations, and the scope of their sovereign immunity is not
necessarily the same. Whether this is a principle of limitation or
aggrandizement is not clear. That is, is tribal sovereign
immunity inherently greater or less than that afforded to states
and foreign nations? The answer may well be neither, just
different.

23a
(2014) 572 U.S. 782, 788.) That decision would be a
political one, necessarily accounting for the interests
of the federal government, the tribes and the states.
Congress has not done so. However, it has done
something strikingly similar that, I believe, leads to
the same result.
Pursuant to the Indian Reorganization Act of
1934 (25 U.S.C. § 5108), “The Secretary of the Interior
is . . . authorized . . . to acquire . . . any interest in
lands . . . for the purpose of providing land for Indians.
[¶] . . . [¶] Title to any lands or rights acquired . . .
shall be taken in the name of the United States in
trust for the Indian tribe or individual Indian for
which the land is acquired, and such lands or rights
shall be exempt from State and local taxation.” Such
acquisitions are implemented according to 25 Code of
Federal Regulations part 151.1 et seq. (2021),
including a written request for approval of acquisition
by the tribe (25 C.F.R. § 151.9 (2021)), and notification
to the state and local governments affected of the
request with an opportunity to respond (25 C.F.R.
§ 151.10 (2021)).
In evaluating requests, the Secretary of the
Interior must consider, inter alia, the need of the tribe
for additional land; the purposes for which the land
will be used; if the land will be used for business
purposes, the anticipated economic benefits; the
location of the land relative to state boundaries and
the tribe’s reservation boundaries; the impact on state
and local governments of the removal of the land from
regulatory jurisdiction and tax rolls; and (importantly
here) jurisdictional problems and potential conflicts of
land use which may arise. (25 C.F.R. §§ 151.10–
151.11 (2021).) The decision to grant or deny the
request is subject to judicial and, in some instances,

24a
administrative review. (25 C.F.R. § 151.12 (2021).)
Also, before approval, the Secretary of the Interior
shall notify the applicant of any liens, encumbrances,
or infirmities in title and may require their
elimination before approval, but shall require their
removal if they render title to the land unmarketable.
(25 C.F.R. § 151.13(b) (2021).)
As noted in the majority opinion, where, as here,
coastal land is involved, the Federal Coastal Zone
Management Act of 1972 provides an additional layer
of state input and public participation. (16 U.S.C.
§ 1456, et seq.) I need not repeat that thorough
explication. Suffice to say, the federal statutory
construct is thorough and intricately balances various
interests—federal, state, tribal and public. It would
seem contrary to that construct, once a tribe petitions
to bring land within the trust, to permit the tribe to
be subjected to all manner of state lawsuits relative to
the land, at least as to questions of title. Indeed,
plaintiffs now seek to impose an encumbrance on the
land—an encumbrance that could impede the
granting of the tribe’s petition.
As Justice O’Connor wrote: “Our cases reveal a
‘“trend . . . away from the idea of inherent Indian
sovereignty as a[n independent] bar to state
jurisdiction and toward reliance on federal preemption.”’ [Citations.] Yet considerations of tribal
sovereignty, and the federal interests in promoting
Indian self-governance and autonomy, if not of
themselves sufficient to ‘pre-empt’ state regulation,
nevertheless form an important backdrop against
which the applicable treaties and federal statutes
must be read. [Citations.] Accordingly, we have
formulated a comprehensive pre-emption inquiry in
the Indian law context which examines not only the

25a
congressional plan, but also ‘the nature of the state,
federal, and tribal interests at stake, an inquiry
designed to determine whether, in the specific
context, the exercise of state authority would violate
federal law.’” (Three Affiliated Tribes of Fort Berthold
Reservation v. Wold Engineering (1986) 476 U.S. 877,
884; Agua Caliente Band of Cahuilla Indians v.
Superior Court (2006) 40 Cal.4th 239, 248 [noting this
trend].)
Here, the property in question was purchased by
the tribe in 2000. However, the purported public
access supporting the implication of an easement is
alleged to have existed since at least 1967. Not until
the tribe petitioned to have the land brought into trust
did plaintiffs seek the declaration of an easement. I
have noted the strong state interest in adjudicating
issues of title to land within the state. Indeed, the
state courts provide a forum for these plaintiffs, or
anyone else, to bring an action to quiet title in an
easement on the property.
However, once the tribe petitions to bring the land
into trust, the tribe’s interest in the acquisition of
land—an interest shared by the federal government—
comes to the fore. At that juncture, Congress has
established a structure for the assertion and
balancing of these various interests as it concerns
questions of title. This seems to be a classic case of
federal field preemption, precluding plaintiffs’ suit.3
Albeit, the field in question is a narrow one: where a
tribe has petitioned to bring land within the federal
trust. I recognize that Congress did not explicitly
3

Alternatively, the specific facts here raise the possibility of
obstacle preemption. (Viva! Internat. Voice for Animals v.
Adidas Promotional Retail Operations, Inc. (2007) 41 Cal.4th
929, 936–940.)

26a
preempt state court actions such as this. But,
preemption need not be explicit, as long as
congressional intent is clear. (Viva! Internat. Voice
for Animals v. Adidas Promotional Retail Operations,
Inc., supra, 41 Cal.4th at pp. 936–940.) Congress has
provided an alternative forum for plaintiffs, such as
these, to be heard. That is, even without a declared
easement, the plaintiffs’ interest in continued access
will be considered. The statutory scheme for tribal
petitions contemplates the possibility of existing
encumbrances. However, to allow any number of
potential parties to seek to impose encumbrances on
the subject land once the petitioning process has
begun is, to my mind, clearly against congressional
intent. On that basis, I would affirm the ruling below.
________________
Reardon, J.*

*

Judge of the Superior Court of Alameda County, assigned
by the Chief Justice pursuant to article VI, section 6 of the
California Constitution.

27a
Humboldt
DR190353

County

Superior

Court,

Case

No.

Trial Judge: The Honorable Kelly L. Neel
J. Bryce Kenny for Plaintiffs and Appellants
Hobbs, Straus, Dean & Walker, Timothy C. Seward,
for Respondent.

28a
APPENDIX C
TIMOTHY C. SEWARD
Hobbs, Straus, Dean & Walker
1903 21st Street, 3rd Floor
Sacramento, CA 95811
Phone: (916) 442-9444
Fax:
(916) 442-8344
SBN 179904

Aug. 2, 2019

Attorney for Defendant
CHER-AE HEIGHTS INDIAN COMMUNITY OF
THE TRINIDAD RANCHERIA
SUPERIOR COURT
FOR THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF HUMBOLDT
JASON SELF, et al.,
Plaintiffs,
vs.
THE CHER-AE
HEIGHTS INDIAN
COMMUNITY OF THE
TRINIDAD
RANCHERIA, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.: DR190353
[PROPOSED]
ORDER ON
MOTION TO
QUASH SERVICE
OF PROCESS AND
DISMISS
COMPLAINT FOR
LACK OF SUBJECT
MATTER
JURISDICTION;
OR, IN THE
ALTERNATIVE
DEMURRER TO
COMPLAINT

29a
)
)
)
)
)
)

Date: July 15, 2019
Time: 10:30 a.m.
Location: Courtroom 4
Complaint Filed:
April 29, 2019

Defendant’s combined Motion to Quash Service of
Process and Motion to Dismiss, or the alternative a
Demurrer to Plaintiffs’ Complaint, came to be heard
on July 15, 2019, before the Honorable Kelly L. Neel
of this Court.
Parties appeared through their
respective counsel. The Court, having considered a
moving papers, opposition papers, reply papers, and
the arguments of counsel, and good cause appearing:
IT IS HEREBY ORDERED that the Motion to
Quash and Motion to Dismiss Plaintiffs Complaint, or
in the alternative, a Demurrer to Plaintiffs’ Complaint
is GRANTED and this case Humboldt County
Superior Court Case Number DR190353 is Dismissed
with prejudice.
Or, in the alternative,
IT IS HEREBY ORDERED that the Demurer to
Plaintiffs Complaint is GRANTED and this case,
Humboldt County Superior Court Case Number
DR190353 is Dismissed with prejudice.
DATED: ___8/1/19____

__/s/ Kelly L. Neel______
Honorable Kelly L. Neel,
Judge of the Superior
Court

30a
APPENDIX D
J. Bryce Kenny CSB 208626
Attorney at Law
P.O. Box 361
Trinidad, CA 95570
Telephone: (707) 442-4431
Email: jbrycekenny@gmail.com
Attorney for Plaintiffs
SUPERIOR COURT
OF THE STATE OF CALIFORNIA
COUNTY OF HUMBOLDT
Jason Self, an Individual,
Thomas W. Lindquist, an
Individual, On behalf of the
General Public,
Plaintiffs,
Vs

Case No. DR190353
OPPOSITION TO
MOTION TO QUASH
SERVICE OF
PROCESS AND
DISMISS
COMPLAINT FOR
LACK OF
JURISDICTION; IN
ALTERNATIVE,
DEMURRER TO
COMPLAINT

The Cher-Ae Heights
Indian Community Of the
Trinidad Rancheria, a
Federally Recognized
Indian Tribe, and all
Persons Unknown,
Date: July 15, 2019
Claiming any Legal
Time: 10:30 a.m.
Interest in The Property
Described in the Complaint Courtroom 4
Adverse to Plaintiffs’
Interest or the Interest Of
the General Public, and

31a
Does 1 Through 15,
Inclusive,
Defendants.

32a
TABLE OF CONTENTS
Page
I.

INTRODUCTION

II.

ARGUMENT

[37a]-[38a]

A.
The Immunity From Suit That
Tribes Enjoy is Derived From the
Common Law
[39a]-[40a]
B.

An Action to Quiet Title is Purely in rem [41a]

C.
A Common law Exception to Sovereign
Immunity Exists for in rem Suits Concerning
Immovable Property
[42a]-[48a]
D.
Policy Reasons do not Support a
Tribal Exemption From the Immovable Property
Rule
[48a]-[50a]
III.

CONCLUSION

[51a]

33a
TABLE OF AUTHORITIES
Cases

Page

Cass County Joint Water Resource
District v 1.43 Acres of Land in
Highland Township (2002) ND 83,
643 N.W.2d 685

[46a]

Cayuga Indian Nation of N.Y. v
Seneca County (2014 2nd Cir.) 761
F.3d 221

[45a]

County of Yakima v Confederated
Tribes of and Bands of Yakima
Nation (1992) 502 U.S. 251

[42a]

Brown v Garcia (2017) 17
Cal.App.5th 1198

[38a]

Duro v Reina (1990) 495 U.S. 676

[50a]

Ex Parte Peru (1943) 318 U.S. 578

[43a]

First National City Bank v Banco
Nacional De Cuba (1972) 406 U.S.
759

[43a]

Great W. Casinos v Morongo Band
of Mission Indians (1999) 74
Cal.App.4th 1407

[38a]

Hamaatsa, Inc. v Pueblo of San
Felipe (2016) 388 P.3d 977

[45a]

34a
Cases

Page

Kiowa Tribe of Okla. v. Mfg. Techs.
Inc. (1998) 523 U.S. 751

[39a], [40a]

Michigan v Bay Mills Indian Cmty.
(2014) 572 U.S. 782

[40a], [44a]

Santa Clara Pueblo v. Martinez
(1978) 436 U.S. 49

[48a]

Save the Valley, LLC v Santa Ynez
Band of Chumash Indians, 2015
WL 12552060

[46a]

Schooner Exchange v McFaddon,
(1812) 11 U.S. 116

[42a]

Stanley v Westover (1928) 93
Cal.App. 97

[41a]

State of Georgia v City of
Chattanooga (1924) 264 U.S. 472

[47a]

United States v Lara (2004) 541
U.S. 193

[50a]

United States v Wheeler (1978) 435
U.S. 313

[40a]

Upper Skagit Indian Tribe v
Lundgren (2018) 138 S.Ct. 1649

[passim]

35a
Cases

Page

Verlinden B.V. v Central Bank of
Nigeria, (1983) 7461 U.S. 480

[43a]

Statutes
28 U.S.C. 2409a

[37a]

Civil Code Sec. 3510

[49a]

Miscellaneous
Bartolus, Conflict of Laws 29 (J.
Beale transl. 1914)

[43a]

California Constitution. Art. X, Sec.
4

[49a]

2 Commentaries on American Law
429, n. a (4th ed. 1840)

[43a]

Restatement (Second) of
Judgments, Sec. 6 (1982)

[41a]

36a
J. Bryce Kenny CSB 208626
Attorney at Law
P.O. Box 361
Trinidad, CA 95570
Telephone: (707) 442-4431
Email: jbrycekenny@gmail.com
Attorney for Plaintiffs
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COUNTY OF HUMBOLDT
Jason Self, an
Individual, Thomas W.
Lindquist, an Individual,
On behalf of the General
Public,

Case No. DR190353

OPPOSITION TO
MOTION TO QUASH
SERVICE OF
PROCESS AND
Plaintiffs,
DISMISS
COMPLAINT FOR
Vs
LACK OF
The Cher-Ae Heights Indian JURISDICTION IN
Community Of the Trinidad ALTERNATIVE,
Rancheria, a Federally
DEMURRER TO
Recognized Indian Tribe,
COMPLAINT
and all Persons Unknown,
Claiming any Legal Interest Date: July 15, 2019
in The Property Described Time: 10:30 a.m.
in the Complaint Adverse to Courtroom 4
Plaintiffs’ Interest or the
Interest Of the General
Public, and Does 1 Through
15, Inclusive,
Defendants.

37a
I. INTRODUCTION
The plaintiffs have filed suit on behalf of the
general public to establish a prescriptive public
easement for access across the defendant’s land for
vehicle access to the shore of Trinidad Bay, and for
parking adjacent to what is commonly referred to as
“State Beach,” on the west side of defendant’s land.
The Tribe owns the land generally knows as the
“Trinidad Harbor property” in fee simple.1 The
property includes a seasonal marine railway boat
launcher, a commercial pier and mooring facilities, a
restaurant, and a vacation rental. An application is
pending to have the subject property placed in the
name of the federal government for the benefit of the
Tribe, i.e.: federal trust status. If the land is accepted
into federal trust, no suit to quiet title to an easement
over the property would be allowed by virtue of federal
law. 28 U.S.C. 2409a. To avoid that result, the
plaintiffs have filed suit in this court based on a long
history of public use of the land for access to Trinidad
Bay for recreational and commercial purposes, and for
parking for foot access to State Beach.
The Tribe has made a special appearance to quash
service of process and dismiss for lack of jurisdiction,
or in the alternative, to demurrer to the complaint.
The straightforward question presented is whether,
as a matter of law, the Tribe is entitled to immunity
from this suit.
The moving party’s Points and Authorities expend
considerable effort in citing basic and unremarkable
1

The motion states that the subject property is less than half
a mile from the Rancheria, but that is only as the crow, or in this
case, the seagull flies across Trinidad Bay. By road it is more
lime 1.2 miles.

38a
propositions about federal Indian law, but which are
not helpful in resolving this question of first
impression in California courts.
As explained fully below, the Tribe asks the wrong
question when it argues that only Congress can
abrogate, or the Tribe or Congress can waive, the
Tribe’s sovereign immunity from suit. The real
question is whether there should be an exception for
tribes to the ancient “immovable property rule,”
whereby when a sovereign acquires property in a
neighboring jurisdiction, it is not immune from suit in
the neighboring jurisdiction’s courts for in rem suits
that concern the real property.
In the typical case, where a hybrid motion to
quash/dismiss is filed, the plaintiff has the burden of
proof to present evidence of sufficient facts to show
that the court has subject matter jurisdiction. Great
W. Casinos v Morongo Band of Mission Indians (1999)
74 Cal.App.4th 1407, 1418 (conflicting evidence of
whether tribe waived its immunity); Brown v Garcia
(2017) 17 Cal.App.5th 1198, 1203 (conflict over
whether allegedly defamatory statements were made
by tribal officials in individual or official capacity).
Here, however, because plaintiffs’ position is that the
common law exception to tribal sovereign immunity
applies, there is no factfinding necessary to determine
whether the court has subject matter jurisdiction.
As explained fully below, the court should find
that as a matter of law, there is no exception to the
exception for tribes, and therefore the motion should
be denied.

39a
II. ARGUMENT
A. The Immunity From Suit That Tribes
Enjoy is Derived From the Common Law
In Kiowa Tribe of Okla. v. Mfg. Techs. Inc. (1998)
523 U.S. 751, 759, the Court had occasion to review
the origins of the sovereign immunity doctrine as it
applies to Indian tribes. The majority opinion stated,
“[a]s with tribal immunity, foreign sovereign
immunity began as a judicial doctrine.” It was noted
that though in the tribal context, the doctrine arose
almost by accident, it was nevertheless repeated in
subsequent cases, and in that manner, became part of
the federal common law. Id. at 757 (citations omitted).
The Court further noted:
There are reasons to doubt the wisdom of
perpetuating the doctrine. At one time, the
doctrine of tribal immunity from suit might
have been thought necessary to protect
nascent
tribal
governments
from
encroachments by States.
In our
interdependent and mobile society, however,
tribal immunity extends beyond what is
needed to safeguard tribal self-governance.
This is evident when tribes take part in the
Nation’s commerce. Tribal enterprises now
include ski resorts, gambling, and sales of
cigarettes to non-Indians.
Id. at 758 (citations omitted).
Despite this criticism, the Court held that the
doctrine did apply in the context of the case before it,
where a tribe had defaulted on a promissory note and
was sued by its holder in state court. It made no
difference to the majority whether the tribe’s business
activity took place on or off the reservation, as its prior

40a
decisions in that area did not distinguish between
commercial or governmental activities, or where the
activity took place. The Court reasoned that congress
had always acted from time to time to limit or expand
tribal sovereign immunity, and it was in a better
position than the courts to examine all policy issues
and conduct hearings and inquiries resulting in the
best outcomes. The Court thus deferred to Congress
to act if it did not agree with the outcome of the case.
Id. at 760.
Justice Stevens authored a strong dissent, joined
in by Justices Thomas and Ginsburg. It questioned
why a tribe should enjoy sovereign immunity more
expansive than that applicable to the federal, state, or
a foreign government. Id. at 765. It observed that,
given the lack of any federal statute or treaty defining
a tribe’s sovereign immunity, creating a “default” rule
of immunity was tantamount to creating law, rather
than interpreting the law. Ibid.
Lastly, in the dissent’s opinion, the rule fashioned
by the majority was simply unjust, especially to tort
victims who have no opportunity to negotiate of
waiver of immunity. Id. at 766.
Other Supreme Court cases cited by the Tribe are
actually supportive of the plaintiffs, when they make
statements like “[u]nless and ‘until Congress acts, the
tribes retain’ their historic sovereign authority.”
Michigan v Bay Mills Indian Cmty. (2014) 572 U.S.
782, 788 (emphasis provided) citing United States v
Wheeler (1978) 435 U.S. 313, 332. As argued below,
all that the plaintiffs are asking is that the common
law scope of sovereign immunity be applied to tribes
the same way it is applied to any other sovereign.

41a
B. An Action to Quiet Title is Purely in rem
As a general proposition the Restatement
(Second) of Judgments, Sec. 6 (1982) explains that in
rem actions include proceedings in which land is
forfeited to government, such as condemnation or
eminent domain actions, proceedings to quiet title
to land, and probate proceedings that resolve
competing claims to property (emphasis provided).
California law is in accord. An action to quiet title
to real property is an action in rem. Stanley v
Westover (1928) 93 Cal.App. 97, 101 (context was deed
lost by county recorder).
It must be noted that the instant case, unlike
almost every case cited by the moving party, concerns
jurisdiction that attaches because of ownership of
property in California, not because of any specific
activity of the Tribe or its officers or employees, on or
off a reservation.
The most informative case on this issue is the
fairly recent Supreme Court case of Upper Skagit
Indian Tribe v Lundgren (2018) 138 S.Ct. 1649. It
bears remarkable similarity to the instant matter. In
Upper Skagit a tribe purchased land outside its
reservation boundaries and then got into a boundary
dispute with the adjoining landowner, who filed suit
in state court to quiet title. The tribe raised the
defense of sovereign immunity, but the trial court
denied the motion to dismiss. The intermediate
appellate court and the Washington Supreme Court
both agreed with the lower court. When it reached the
United States Supreme Court, however, it was
reversed. Id. at 1653. The Court reversed because the
Washington courts had relied upon what it considered
to be an incorrect interpretation of an earlier Supreme

42a
Court case, County of Yakima v Confederated Tribes
of and Bands of Yakima Nation (1992) 502 U.S. 251.
The Court clarified that Yakima was primarily an
interpretation of a federal statute called the General
Allotment Act, which reflected federal policy prior to
the 1934 Indian Reorganization Act, and it said
nothing about sovereign immunity.
The Court was urged to affirm the Washington
courts’ judgment on the alternative grounds of the
“immovable property doctrine,” the same theory being
offered here. But the majority declined to address it
because the issue only came up very late in the
proceedings, and there was precedent to remand so
the lower courts could have the first crack at the issue
in those circumstances. Upper Skagit, supra, 138
S.Ct. at 1654.
The majority opinion does acknowledge that the
immovable property doctrine goes back in its
jurisprudence to at least 1812. “As our cases have put
it, “[a] prince, by acquiring private property in a
foreign country, . . . may be considered as so far laying
down the prince, and assuming the character of a
private individual.” Id. at 1653, citing Schooner
Exchange v McFaddon, (1812) 11 U.S. 116, 7 Cranch
116, 145, 3 L.Ed 287.
The majority opinion mentions the two arguments
urged by the tribe and the government there, as to
why the immovable property doctrine should not
apply to tribes. First, citing Kiowa, supra, it is stated
that immunity doctrines lifted from other contexts—
namely, states’ immunity--do not always neatly apply
to Indian tribes. Ibid. This is an often-stated
proposition that has at its core the fact that at the
Constitutional Convention, the states all waived their
immunity for the sake of creating one Nation. The

43a
tribes, on the other hand, were not even present at the
convention, so could not have waived their immunity.
That is a true statement, but of little force here,
because as pointed out by the dissent in Upper Skagit,
the immovable property rule predates the
constitutional convention by a significant margin. Id.
at 1658-1659.
Justice Thomas wrote “[t]he principle of lex rei
sitae was so well established by the 19th century that
Chancellor James Kent deemed it “too clear for
discussion.” 2 Commentaries on American Law 429,
n. a (4th ed. 1840). The medieval jurist Bartolus of
Sassoferatto had recognized the principle 500 years
earlier in his commentary on conflicts of law under the
Justinian Code.” Id. at 1658, citing Bartolus, Conflict
of Laws 29 (J. Beale transl. 1914). If tribal immunity
derives from the common law, then it must include the
common law exception of the immovable property
rule.
The majority opinion also pointed out that “...the
political branches rather than judges have held
primary responsibility for determining when foreign
sovereigns may be sued for their activities in this
country.” Upper Skagit, supra, 138 S.Ct at 1654,
citing Verlinden B.V. v Central Bank of Nigeria,
(1983) 461 U.S. 480, 486; Ex Parte Peru (1943) 318
U.S. 578, 588. That state of affairs is understandable,
given that it is the executive branch’s duty to set
foreign policy, not the judicial branch. First National
City Bank v Banco Nacional De Cuba (1972) 406 U.S.
759, 765. As stated above, the Tribe’s immunity, on
the other hand, is a creature of U.S. Supreme Court
decisions. It is appropriate for courts to decide
whether the immovable property rule applies to tribes
or not, because doing so is not an abrogation of tribal

44a
immunity, but only a recognition that at common law,
there existed an exception that applies to tribes as
well as other sovereigns. There is no Supreme Court
precedent that prohibits that.
In a concurring opinion in Upper Skagit, Chief
Justice John Roberts, joined by Justice Kennedy,
forcefully stated:
But that [majority] opinion poses an
unanswered question:
What precisely is
someone in the Lundgrens’ position supposed
to do? There should be a means of resolving a
mundane dispute over property ownership,
even when one of the parties to the dispute—
involving non-trust, non-reservation land—is
an Indian tribe. The correct answer cannot be
that the tribe always wins no matter what;
otherwise a tribe could wield sovereign
immunity as a sword and seize property with
impunity, even without a colorable claim of
right.
He suggested that if the lower courts were not
willing to recognize the immovable property rule in
the tribal context, “...the applicability of sovereign
immunity in such circumstances would, in my view,
need to be addressed in a future case. See Michigan v
Bay Mills Indian Community, 572 U.S. _____, _____
n.8, 134 S.Ct. 2024, 188 L.Ed. 2d 1071 (2014)
(reserving the question whether sovereign immunity
would apply if a ‘plaintiff who has not chosen to deal
with a tribe[ ] has no alternative way to obtain relief
for off-reservation commercial conduct’).” Upper
Skagit, supra, 138 S.Ct. at 1656.
Accordingly, the moving party’s insistence that
only Congress can abrogate a tribe’s immunity is

45a
misplaced, because here, the issue is whether an
exception to the immovable property rule should exist
for tribes as well as other sovereigns.
The Upper Skagit Court noted a split of authority
at that time over whether suits in rem were exempt
from sovereign immunity. 138 S.Ct. at 1651. One
case cited was Cayuga Indian Nation of N.Y. v Seneca
County (2014 2nd Cir.) 761 F.3d 221, which held that
the tribe was immune from a foreclosure suit brought
by the county to collect unpaid property taxes. It is
distinguishable from the instant matter, which seeks
only clarification of rights in land, and does not in any
way implicate the financial health of the Tribe.
Further, even Cayuga recognized that the Supreme
Court has instructed that unless Congress has
abrogated a tribe’s immunity from suit, common law
immunity must be recognized. 761 F3d. at 222. As
stated above, the common law rule in this case creates
an exception that should be applicable to tribes in the
context of in rem suits to quiet title to land they own
in fee simple.
Hamaatsa, Inc. v Pueblo of San Felipe (2016) 388
P.3d 977, 985, from the New Mexico Supreme Court,
is more similar to the instant matter because it
involved a public road crossing fee owned Indian land.
That court elected to follow Cayuga and give tribal
sovereign immunity its absolute maximum scope and
grant a motion to dismiss brought on those grounds.
But neither Cayuga nor Hamaatsa had the benefit of
the Court’s observations in Upper Skagit, because
they preceded it.
Upper Skagit marks an
unmistakable shift away from the expansive
application of tribal sovereign immunity, at least in
quiet title actions such as this one.

46a
The moving party also cites Save the Valley, LLC
v Santa Ynez Band of Chumash Indians, 2015 WL
12552060, but it is readily distinguishable. There a
citizen group filed suit challenging the status of land
upon which a casino expansion was being constructed,
alleging that it was not federal trust land. The district
judge, in granting a motion to dismiss on sovereign
immunity grounds, stated in footnote 3 that he
declined to follow the state cases cited to him, because
they all, like the instant matter, involved in rem
actions in which the plaintiffs were claiming an
interest in the land, either through eminent domain,
or to quiet title. The plaintiffs there had no standing
to assert a quiet title action, because they could claim
no interest in the land, they only asserted that it was
not federal trust land. The case also did not consider
the question which arose in Upper Skagit as to
whether the ancient immovable property rule
provides jurisdiction in a case such as this one.
To the extent that Upper Skagit’s holding has
undercut the validity of the prior state cases that had
denied sovereign immunity, that should not be true
for Cass County Joint Water Resource District v 1.43
Acres of Land in Highland Township (2002) 2002 ND
83, 643 N.W.2d 685 from the North Dakota Supreme
Court. That is because although it did discuss the
Yakima case, the applicability of which was clarified
in Upper Skagit, it also seemed to rely upon the
immovable property rule as well to find that it had
subject matter jurisdiction.
The facts were that a water district brought a
condemnation action for land which had recently been
conveyed in fee simple to an Indian tribe. The trial
court granted a motion to dismiss on the grounds of
sovereign immunity, finding that the court would

47a
need both in rem jurisdiction over the land, and in
personam jurisdiction over the Tribe. The Supreme
Court of North Dakota reversed, and in doing so,
discussed County of Yakima v Confederated Tribes,
supra. It noted that in Yakima the power to levy
property taxes on fee owned reservation property was
approved, and that such jurisdiction was permissible
if it was in rem rather than in personam. Cass, supra,
643 N.W.2d at 691.
In reversing and remanding Upper Skagit to the
Washington Supreme Court, the Court stated that it
was error for the Washington Supreme Court to have
“...read Yakima as distinguishing in rem from in
personam lawsuits and ‘establishing the principle
that...courts have subject matter jurisdiction over in
rem proceedings in certain situations where claims of
sovereign immunity are asserted.’” 138 S.Ct. at 1652.
That admonition does not necessarily undermine the
validity of Cass, because in addition to citing Yakima,
it cited and discussed a case which, though it did not
use the name, applied a version of the “immovable
property rule.”
The case it cited was State of Georgia v City of
Chattanooga (1924) 264 U.S. 472, and it involved the
State of Georgia owning fee simple land in Tennessee
used for a railroad yard. The city sued to condemn
part of the land for a street. Georgia responded by
asserting it was immune from suit in Tennessee
courts.
The Court held that the defense was
inapplicable, reasoning that “[l]and acquired by one
state in another state is held subject to the laws of the
latter, and to the incidents of private ownership.”
Georgia, supra, 264 U.S. 479. That is essentially a
restatement of the immovable property rule.
Tellingly, the Court did not mention that all states

48a
had waived their immunity as part of the
Constitutional Convention, at which tribes did not
attend. Thus, it was clear that it was referring to a
common law rule rather than a waiver of immunity by
Georgia. Therefore, the Georgia Court’s reasoning
should be applicable in the tribal context as well.
Based on the reasoning of Cass and other state
cases, and the majority, concurring, and dissent
opinions in Upper Skagit, this court should hold that
the immovable property rule is applicable to tribes,
just as it is to every other sovereign going far back into
the common law. It must be remembered that the
Upper Skagit Court did not disapprove of the
immovable property rule, it only decided to let it
percolate up through the lower courts first because of
the late stage at which it emerged in the case.
D. Policy Reasons do not Support a Tribal
Exemption From the Immovable Property Rule
One of the underpinnings of tribal sovereign
immunity was to guard the capital of tribes, most of
whom have traditionally had scarce financial
resources. Santa Clara Pueblo v. Martinez (1978) 436
U.S. 49, 65 n.19 (recognizing that “many of the poorer
tribes with limited resources and income could ill
afford to shoulder the burdens of” “[t]he cost of civil
litigation”).
However, tribal gambling has completely changed
the picture on that score, especially in California. The
National Indian Gaming Commission, in its most
recent publication, states that as of the 2017 fiscal
year, California and Northern Nevada Indian gaming
has generated revenue of $8,996,042,000. (Request
for Judicial Notice filed herewith.) Clearly, as a
general proposition, the rationale that tribes do not

49a
have the resources to go to court no longer applies so
as to support tribal sovereign immunity. It is a maxim
of jurisprudence that “[w]hen the reason of a rule
ceases, so should the rule itself.” Civil Code Sec. 3510.
The Cass County case, which was an eminent
domain case, cogently observed that if sovereign
immunity were applied, “...Indian tribes would
effectively acquire veto power over any public works
project attempted by any state or local government
merely by purchasing a small tract of land within the
project.” 643 N.W.2d at 694. That fear was echoed by
Chief Justice John Roberts in Upper Skagit when he
said “[t]he correct answer cannot be that the tribe
always wins no matter what; otherwise a tribe could
wield sovereign immunity as a sword and seize
property with impunity, even without a colorable
claim of right.” Upper Skagit, supra, 138 S.Ct. at
1655.
The instant plaintiffs are trying to establish an
easement for access to the sea for the general public,
not just for themselves. The right of the public to
access the shoreline is enshrined in the California
Constitution. Art. X, Sec. 4 states:
No individual, partnership, or corporation
claiming or possessing the frontage or tidal
lands of a harbor, bay, inlet, estuary, or other
navigable water in this state, shall be
permitted to exclude the right of way to such
water whenever it is required for any public
purpose, nor to destroy or obstruct the free
navigation of such water; and the Legislature
shall enact such laws as will give the most
liberal construction to this provision, so that
access to the navigable waters of this state

50a
shall be always attainable for the people
thereof.
Protecting coastal access is a very strong aspect of
the sovereignty of the State of California. If this court
has no jurisdiction to carry out the dictates of the
California Constitution, then something has gone
very much awry with the doctrine of tribal sovereign
immunity.
Since Kiowa was issued in 1998, and strongly
criticized the doctrine of tribal sovereign immunity,
Congress has chosen to do nothing to either expand
the doctrine, or contract it, except in minor ways not
applicable here. But this court need not wait—
seemingly interminably—for Congress to act. The
immovable property rule is part of the common law of
sovereign immunity.
Because tribal sovereign
immunity is rooted in the common law, and so is the
immovable property exception, it necessarily follows
that it applies to tribes, unless and until Congress
says that it does not.
When courts decide Indian cases in a way which
Congress believes to be undesirable, it can and has
changed the underlying law to prevent a replication of
the result. One such case was Duro v Reina (1990)
495 U.S. 676, which held that an Indian reservation
had no criminal jurisdiction over Indians who were
not members of that tribe. Congress amended the
underlying statute to reverse that result, and it was
upheld as constitutional in United States v Lara
(2004) 541 U.S. 193, 199. If Congress disagrees with
a ruling that tribal immunity does not apply here, it
is free to pass a statute directing how and when it is
to be applied.

51a
III. CONCLUSION
Tribal sovereign immunity is a creature of the
common law. The common law has always contained
an exception to the rule of sovereign immunity, i.e.:
the “immovable property rule.” A party taking the
benefit of the doctrine of sovereign immunity must
also take the small burden that a recognized exception
brings.
For the above-stated reasons, the pending motion
should be denied and the demurrer overruled.
Dated: _6-27-2019_

Respectfully Submitted,
__/s/_J. Bryce Kenny__
J. Bryce Kenny
Attorney for Plaintiffs

52a
PROOF OF SERVICE
I am over the age of eighteen years, a U.S. Citizen,
and am not a party to the pending action. My business
address is P.O. Box 361, Trinidad, CA 95570.
On this date I served the following: OPPOSITION
TO MOTION TO QUASH SERVICE/ DISMISS/
DEMURRER; PROPOSED ORDER
___x___ by electronic service pursuant to the
stipulation of counsel, to tseward@hobbsstraus.com:
_______ By personal service to the person named
below:
_______ BY OVERNIGHT PARCEL DELIVERY
SERVICE
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.
Dated: _6-28-19_ _/s/ J. Bryce Kenny_
Bryce Kenny

53a
APPENDIX E
TIMOTHY C. SEWARD
Hobbs, Straus, Dean & Walker
1903 20 Street, 3rd Floor
Sacramento, CA 95811
Phone: (916) 442-9444
Fax: (916) 442-8344
SBN 179904
Attorney for Defendant
CHER-AE HEIGHTS INDIAN COMMUNITY
OF THE TRINIDAD RANCHERIA
SUPERIOR COURT FOR THE STATE OF
CALIFORNIA IN AND FOR THE COUNTY OF
HUMBOLDT
JASON SELF, et al.
Plaintiffs,
vs.
THE CHER-AE
HEIGHTS INDIAN
COMMUNITY OF
THE TRINIDAD
RANCHERIA, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.: DR190353
NOTICE OF MOTION
AND MOTION TO
QUASH SERVICE OF
PROCESS AND
DISMISS COMPLAINT
FOR LACK OF
SUBJECT MATTER
JURISDICTION; OR, IN
THE ALTERNATIVE
DEMURRER TO
COMPLAINT
Date: July 15, 2019
Time: 10:30 a.m
Location: Courtroom 4
Complaint Filed: April 29,
2019

54a
PLEASE TAKE NOTICE that on July 15, 2019, at
10:30 a.m, or as soon thereafter as the matter may be
heard, in Courtroom 4 of the Humboldt County
Superior Court located at 421 I Street in Eureka,
California, 95501, Defendant Cher-Ae Heights Indian
Community of the Trinidad Rancheria, a federally
recognized Indian tribe (“Trinidad Rancheria”)
specially appears and hereby does move this Court for
an Order granting Defendant’s combined Motion to
Quash Service of Process and Motion to Dismiss
Plaintiffs’ Complaint, or in the alternative, a
Demurrer to Plaintiffs’ Complaint, on the grounds
that this Court lacks subject matter jurisdiction
because Defendant, as a federally recognized Indian
tribe, is immune from suit.
Because a party may raise subject matter
jurisdiction at any time, no specific procedural method
is required to bring the matter to the court’s attention.
Great Western Casinos, Inc. v. Morongo Band of
Mission Indians, 74 Cal. App. 4th 1407, 1418 (1999).
California courts have recognized “the hybrid motion
to quash/dismiss as a proper means of challenging the
court’s authority without making a general
appearance” based on the rule that subject matter
jurisdiction can be challenged at any time. Brown v.
Garcia, 17 Cal. App. 4th 1198, 1204 (2017); Boisclair
v. Superior Court, 51 Cal. 3d 1140, 1144 fn. 1 (1990).
In the alternative, the Trinidad Rancheria requests
that its motion be deemed a demurrer. To the extent
that the Trinidad Rancheria’s motion is treated as a
demurrer, the Trinidad Rancheria, through its
attorney, contacted the Plaintiffs’ attorney to meet
and confer about the Trinidad Rancheria’s motion in
accordance with CCP § 430.41(a), and the parties were
not able to reach an agreement on the demurrer. (See

55a
the Declaration
concurrently.)

of

Timothy

C.

Seward,

filed

The Motion is made pursuant to California Code
of Civil Procedure (CCP) § 418.10, and in the
alternative pursuant to CCP § 430.10(a), and is based
on this Notice of Motion, the Memorandum of Points
and Authorities, the Declaration of Timothy C.
Seward, all the files and records of this action, and on
any additional material that may be elicited at the
hearing of the Motion.
DATED: June 7, 2019

Respectfully Submitted,
HOBBS, STRAUS, DEAN
& WALKER, LLP
_/s/ Timothy C. Seward__
By: Timothy C. Seward
(SBN 179904)
1903 21st St., 3rd Floor
Sacramento, CA 95811
Phone: (916) 442-9444
Email:
tseward@hobbsstraus.co
m

56a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF HUMBOLDT CASE NUMBER: DR190353
CASE: SELF v. CHER-AE HEIGHTS INDIAN
COMMUNITY, et al.
PROOF OF SERVICE BY MAIL
I declare that I am employed in the County of
Sacramento, California. I am over the age of eighteen
years and my business address is 1903 21St Street,
Third Floor, Sacramento, California 95811. On June
7, 2019, I served the attached NOTICE OF MOTION
AND MOTION TO QUASH SERVICE OF
PROCESS AND DISMISS COMPLAINT FOR
LACK OF SUBJECT MATTER JURISDICTION;
OR, IN THE ALTERNATIVE DEMURRER TO
COMPLAINT on the parties in said case by placing a
true and correct copy thereof enclosed in a sealed
envelope with postage thereon fully paid, in the
United States mail addressed as follows.
Attorneys for Plaintiffs:
J. Bryce Kenny, Esq.
PO Box 361
Trinidad, CA 95570
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct, and that this declaration was executed on the
7th of June 2019, at Sacramento, California.
_/s/ Kris Daly_______
KRIS DALY

57a
APPENDIX F
J. Bryce Kenny CSB 208626
Attorney at Law
P.O. Box 361
Trinidad, CA 95570
Telephone: (707) 442-4431
Email:
jbrycekenny@gmail.com

Apr. 29, 2019

Attorney for Plaintiffs
SUPERIOR COURT
OF THE STATE OF CALIFORNIA
COUNTY OF HUMBOLDT
Jason Self, an Individual,
Thomas W. Lindquist, an Case No. DR190353
Individual, on Behalf of the
General Public, Plaintiffs,
vs
The Cher-Ae Heights Indian
Community Of the Trinidad
Rancheria,
a
Federally
Recognized Indian Tribe, and
all
Persons,
Unknown,
Claiming any Legal or
Equitable
Right,
Title,
Estate, Lien, or Interest in
the Real Property Described
in the Complaint Adverse to
Plaintiffs’ Interest or the
Interest Of the General
Public, and Does 1 Through
15, Inclusive, Defendants.

IN REM
COMPLAINT TO
QUIET TITLE TO
PUBLIC
EASEMENT

58a
On behalf of the general public, plaintiffs allege:
ALLEGATIONS COMMON TO ALL CAUSES OF
ACTION
1. The beaches with which this lawsuit is
concerned are located adjacent to Trinidad Harbor, in
the City of Trinidad, California. One will be referred
to as “boat launch beach,” and is situated next to the
commercial marine railway which seasonally serves
Trinidad Bay. The other will be referred to as
“Trinidad State Beach,” which is located on the Pacific
Ocean just to the north of Trinidad Head. Access to
both beaches requires crossing private property now
owned in fee simple by the Cher-Ae Heights Indian
Community of the Trinidad Rancheria.
2. Plaintiff Jason Self is a resident of Humboldt
County who depends on public access to boat launch
beach for year-round operation of his business “Kayak
Trinidad” and also uses the boat launch beach and
Trinidad State Beach and its parking area for his own
recreational purposes.
3. Plaintiff Thomas W. Lindquist is a resident of
Humboldt County who has a history, since at least
1981, of using the subject property for access to both
the boat launch beach and the parking area for access
to Trinidad State Beach.
4. Defendant
Cher-Ae
Heights
Indian
Community of the Trinidad Rancheria (“Rancheria”)
is a federally recognized Indian tribe.
5. Plaintiffs do not know the true names of
defendants DOES 1 through 15, inclusive, and
therefore sues them by those fictitious names.
Plaintiffs are informed and believe, and on that basis
alleges that each of the DOE defendants’ claims, or
may claim, some interest in the real property

59a
described in this complaint. The names, capacities
and relationships of Does 1 through 15 will be alleged
by amendment to this complaint when the same are
known.
6. Plaintiffs are informed and believe, and on
that basis allege that at all times mentioned in this
complaint, defendants were the agents and employees
of their codefendants, and in doing the things alleged
in this complaint were acting within the course and
scope of that agency and employment.
7. The property which is the subject of this
lawsuit (hereinafter the “subject property”) is
commonly known as the Trinidad Harbor parking
area, and is legally described in Exhibit A hereto.
There is currently pending an application to the
federal Department of the Interior Bureau of Indian
Affairs to place all of the subject property into “trust
status” where title would be held by the United States
of America for the benefit of the Rancheria. Plaintiffs
are informed and believe, and on that basis allege that
if a decree quieting title to certain public easements
over the subject property is not granted and recorded,
the rights of the public to use the subject property may
be lost forever.
FIRST CAUSE OF ACTION TO QUIET TITLE
TO EASEMENT OVER REAL PROPERTY BY
EXPRESS OR IMPLIED DEDICATION
8. In or around January of 2000 the Rancheria
acquired title to the subject property in fee simple
absolute.
9. On information and belief, since at least
January 1, 1967, the prior owners of the subject
property either expressly or impliedly offered to make
a common law dedication of a portion of it to the public

60a
use of small boat launching from boat launch beach,
for parking for vehicles used for beach boat launching,
and for parking for vehicles whose owners were
utilizing Trinidad State Beach for recreational
purposes.
10. On information and belief, the general public
accepted the offer of dedication by using the subject
property for the above-described purposes, free of
charge, with the belief that it was public property.
11. Within five years of the filing of this action,
plaintiffs and the general public were seised of the
rights they claim in the subject property.
12. The basis of the plaintiffs’ title is the public’s
acceptance of the express or implied offer to dedicate
by the continuous use of the property for recreational
beach access.
13. The claim of plaintiffs is adverse to that of the
Rancheria.
14. The plaintiffs seek to quiet title as of the date
of this complaint.
SECOND CAUSE OF ACTION FOR QUIET
TITLE TO EASEMENT OVER REAL PROPERTY
BASED ON OPERATION OF ARTICLE X, SECTION
4 OF THE CALIFORNIA CONSTITUTION
15. Plaintiffs incorporate paragraphs 1 through
13 above as if fully set forth here.
16. As an alternative basis for quiet title,
plaintiffs allege on information and belief that
defendant’s title does not trace back to a Mexican land
grant which resulted in a federal patent obtained
prior to the admission of California to the United
States so as to limit the State of California’s rights
which attached to the land prior to its transfer to

61a
subsequent deed holders, which rights exist by virtue
of Article X, Section 4 of the California Constitution,
the common law trust doctrine, or both.
THIRD CAUSE OF ACTION FOR INJUNCTIVE
RELIEF
17. Plaintiffs incorporate paragraphs 1 through
13, inclusive, as if fully set forth here.
18. Because of the pending application to place
the subject property into federal trust status, there
exists legal uncertainty as to whether such an
occurrence would oust this court of jurisdiction to
issue a final decree quieting title to a public easement.
Accordingly, the plaintiffs and the general public may
suffer irreparable injury as a result of the Rancheria
closing off the subject property to public access on
reliance of its misunderstanding of the legal rule
against concurrent in rem jurisdiction.
19. Because plaintiffs would in that case have no
adequate remedy at law, they reserve the right to seek
a temporary restraining order and preliminary
injunction protecting the public’s right of access to the
subject property during the pendency of this case. An
award of money damages would not be adequate
because the Tribe is immune from suits for money
damages.
FOURTH
CAUSE
DECLARATORY RELIEF

OF

ACTION

FOR

20. Plaintiffs incorporate paragraphs 1 through
16, inclusive as if fully set forth here.
21. An actual controversy has arisen and now
exists between plaintiff and defendant concerning
their respective rights and duties in that plaintiffs
contend that they and the public at large have an

62a
easement or easements over the subject property,
whereas defendant disputes these contentions and
contends that the only easements that burden its
property are those of record.
22. Plaintiffs desires a judicial determination of
their rights and duties, and a declaration as to
whether a public easement exists across the subject
property.
23. A judicial declaration is necessary and
appropriate at this time under the circumstances in
order that plaintiffs may ascertain their rights in the
subject property and relief from the burden being
caused to them by the unsettled state of affairs.
WHEREFORE, plaintiffs pray for judgment as
follows:
1. On the First and Second Causes of Action for
a judgment quieting title to a public easement or
easements over the subject property;
2. On the Third Cause of Action, for a
preliminary and permanent injunction barring
defendant from interfering with the public easement
over its property;
3. On the Fourth Cause of Action for a
declaration that a public easement or easements exist
over the subject property;
4. For costs of suit and attorney’s fees as
provided by law;
5. For such other and further relief as the court
deems just and proper.

63a
Dated:
___4/29/19_____________

_/s/ J. Bryce Kenny_____
J. Bryce Kenny
Attorney for Plaintiffs

64a
VERIFICATION
I, Jason Self, have read the foregoing complaint
and know the content thereof. The same is true based
on my personal knowledge, except for such matters as
are alleged on information and belief, and as to those,
I believe them to be true.
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.
Dated: ___4/29/19_____

___ /s/ Jason Self______
Jason Self

